<html>
<title> - OVERSIGHT FAILURES BEHIND THE RADIOLOGICAL INCIDENT AT DOE'S WASTE ISOLATION PILOT PLANT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





  OVERSIGHT FAILURES BEHIND THE RADIOLOGICAL INCIDENT AT DOE'S WASTE 
                         ISOLATION PILOT PLANT

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2015

                               __________

                           Serial No. 114-54


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-612 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





















                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                 _____

              Subcommittee on Oversight and Investigations

                        TIM MURPHY, Pennsylvania
                                 Chairman
DAVID B. McKINLEY, West Virginia     DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
LARRY BUCSHON, Indiana               JOHN A. YARMUTH, Kentucky
BILL FLORES, Texas                   YVETTE D. CLARKE, New York
SUSAN W. BROOKS, Indiana             JOSEPH P. KENNEDY, III, 
MARKWAYNE MULLIN, Oklahoma               Massachusetts
RICHARD HUDSON, North Carolina       GENE GREEN, Texas
CHRIS COLLINS, New York              PETER WELCH, Vermont
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     4
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................    51
    Prepared statement...........................................    52

                               Witnesses

Madelyn Creedon, Principal Deputy Administrator, National Nuclear 
  Security Administration, Department of Energy..................     8
    Prepared statement...........................................    10
    Additional information for the record........................    57
    Answers to submitted questions \1\...........................    77
Mark Whitney, Acting Assistant Secretary for Environmental 
  Management, Department of Energy...............................    15
    Prepared statement...........................................    17
    Additional information for the record........................    63
    Answers to submitted questions \1\...........................    77
Theodore A. Wyka, Chief Nuclear Safety Advisor for the Deputy 
  Assistant Secretary for Safety, Security, and Quality Programs, 
  Office of Environmental Management, Department of Energy, and 
  Former Chairman, Accident Investigation Board, Department of 
  Energy \2\
    Answers to submitted questions \1\...........................    77
Allison B. Bawden, Acting Director, Natural Resources and 
  Environment, Government Accountability Office..................    28
    Prepared statement...........................................    30
    Answers to submitted questions...............................   101

                           Submitted Material

Invitation of June 5, 2015, from Mr. Murphy to Ernest Moniz, 
  Secretary, Department of Energy, submitted by Mr. Murphy.......    73
Invitation of June 5, 2015, from Mr. Murphy to Gene L. Dodaro, 
  Comptroller General, Government Accountability Office, 
  submitted by Mr. Murphy........................................    75
Subcommittee exhibit binder \3\

----------
\1\ The Department of Energy provided a joint response to 
  questions submitted to Secretary Ernest Moniz.
\2\ Mr. Wyka did not offer an oral or written statement for the 
  record.
\3\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/Committee/Calendar/
  ByEvent.aspx?EventID=103595.

 
  OVERSIGHT FAILURES BEHIND THE RADIOLOGICAL INCIDENT AT DOE'S WASTE 
                         ISOLATION PILOT PLANT

                              ----------                              


                         FRIDAY, JUNE 12, 2015

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:47 a.m., in 
Room 2322, Rayburn House Office Building, Hon. Tim Murphy 
[chairman of the subcommittee] presiding.
    Members present: Representatives Murphy, Burgess, 
Blackburn, Bucshon, Brooks, Mullin, Collins, Upton (ex 
officio), DeGette, Green, Welch, and Pallone (ex officio).
    Also present: Representative Lujan.
    Staff present: Charles Ingebretson, Chief Counsel, 
Oversight and Investigations; John Ohly, Professional Staff 
Member, Oversight and Investigations; Chris Santini, Policy 
Coordinator, Oversight and Investigations; Dan Schneider, Press 
Secretary; Peter Spencer, Professional Staff Member, Oversight 
and Investigations; Jessica Wilkerson, Oversight Associate; 
Christine Brennan, Democratic Press Secretary; Jeff Carroll, 
Democratic Staff Director; Ryan Gottschall, Democratic GAO 
Detailee; Christopher Knauer, Democratic Oversight Staff 
Director; Elizabeth Letter, Democratic Professional Staff 
Member; and Timothy Robinson, Democratic Chief Counsel.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. All right. Good morning. I apologize for the 
delay, but we are here now. This is the hearing on the 
``Oversight Failures Behind the Radiological Incident at DOE's 
Waste Isolation Pilot Plant.''
    Today we will review a costly series of oversight failures 
at two important Department of Energy sites. These failures 
contributed to a radiological leak last year at one of the 
sites, the Waste Isolation Pilot Plant, known as WIPP, which 
serves to dispose in mined salt caverns certain types of 
radiological waste from our Nation's nuclear weapons programs.
    This leak, along with a separate truck fire the week 
before, exposed management and oversight shortcomings both at 
WIPP and at one of the Nation's premier national laboratories, 
the Los Alamos National Laboratory. Los Alamos, it turns out, 
was the source of the radiological material and the errors that 
caused a reaction in the material that burst a container in 
WIPP's underground facility.
    Since the incident, WIPP has been shut down, and the 
Department has embarked on remediation, training, and 
rebuilding that will cost taxpayers an estimated $240 million 
just to restart limited operations next year. All told, it may 
ultimately cost more than $500 million before full operations 
are estimated to commence in 2018, and there are reports of DOE 
fines or settlements of some $73 million.
    This was no small oversight failure, and the issues we will 
examine today raise broader questions about the state of the 
Department's oversight framework for operations and its various 
cleanup at nuclear sites.
    The root cause of the radiological incident was established 
in a DOE report this past April. Basically, hundreds of 
containers were inappropriately packaged for WIPP disposal by 
workers at Los Alamos. They packaged waste mixtures with 
organic absorbants, which created reactive and ignitable waste 
forms.
    The specific culprit was off-the-shelf organic kitty 
litter, and the use of this organic material was traced to 
someone writing down ``organic'' instead of ``inorganic''--a 
simple human error. But this is more than what happens when you 
don't pay attention in high school chemistry and spelling 
classes. This failure to catch an error reflected a much larger 
systemic failure.
    Two years before the incident, Los Alamos actually stopped 
work that had been mixing waste with organics precisely because 
of the reactivity and ignition risks. The lab's so-called 
Difficult Waste Team, along with Federal site officials, 
directed a safety process change that would use inorganics as 
absorbants.
    The problem was, over the next year and a half, no one in 
management or among Federal overseers made sure the new 
procedures were followed, so what they thought was fixed 
wasn't. And no one in management or at the Federal level 
reviewed the process to determine why workers had been creating 
dangerous mixtures in the first place--a basic practice of an 
effective safety system.
    As the Los Alamos Lab's own review noted, the fact that so 
many critical management, safety, and oversight mechanisms all 
failed simultaneously over an extended period of time are of 
significant concern.
    Also of significant concern are patterns of oversight 
failure found to have occurred at the WIPP site. For example, 
at WIPP, both the contractor and Feds failed to identify or fix 
shortcomings in equipment and degraded conditions in the mine 
over a period of years. These errors led to the environmental 
release and added tens of millions to the cost of recovery 
operations.
    The failures at these sites contribute to a long story of 
DOE struggles to conduct adequate oversight of its management 
and operating contractors, which are responsible for much of 
the core activities of the Department.
    Just over 2 years ago, DOE and National Nuclear Security 
Administration, NNSA, officials came before this committee to 
explain security failures at the Y-12 National Security Site in 
Tennessee. The failures were notoriously exposed when several 
elderly peace activists penetrated the security perimeter of 
the most secure section of the site.
    What was clear from that incident sounds very familiar 
today: What the Feds thought was working wasn't. Site officials 
trusted that contractors were doing what they were supposed to 
do without checking. Federal line oversight had failed.
    We were told then that the successful reliance on 
department contractors depends on strong and clear lines of 
accountability and on meaningful and consistent measurement of 
contractor performance. We were promised that actions would be 
taken to address the shortcomings. Yet we have again learned 
from GAO that the DOE and NNSA have yet to make significant 
progress to make the necessary reforms with regard to 
measurement of contractor performance, and this is not 
acceptable.
    Today we will hear from department officials and the GAO, 
all of whom can explain the costly oversight failures at WIPP 
and Los Alamos, what is being done, and what must be done to 
fix these problems at the sites and across the complex. I hope 
this hearing helps to identify what is necessary for DOE to 
develop an oversight system that can effectively identify, 
address safety issues and security issues before they become 
costly mistakes.
    [The prepared statement of Mr. Murphy follows:]

                 Prepared statement of Hon. Tim Murphy

    Today we will review a costly series of oversight failures 
at two important Department of Energy sites. These failures 
contributed to a radiological leak last year at one of the 
sites, the Waste Isolation Pilot Plant, known as WIPP, which 
serves to dispose in mined salt caverns certain types of 
radiological waste from our nation's nuclear weapons programs.
    This leak, along with a separate truck fire the week 
before, exposed management and oversight shortcomings both at 
WIPP and at one of the nation's premier national laboratories--
the Los Alamos National Laboratory. Los Alamos it turns out was 
the source of the radiological material and the errors that 
caused a reaction in the material that burst a container in 
WIPP's underground facility.
    Since the incident, WIPP has been shut down and the 
Department has embarked on remediation, training, and 
rebuilding that will cost taxpayers an estimated $240 million 
just to restart limited operations next year. All told, it may 
ultimately cost more than $500 million before full operations 
are estimated to commence in 2018.
    This was no small oversight failure. And the issues we will 
examine today raise broader questions about the state of the 
Department's oversight framework for operations at its various 
cleanup and nuclear sites.
    The root cause of the radiological incident was established 
in a DOE report this past April. Basically, hundreds of 
containers were inappropriately packaged for WIPP disposal by 
workers at Los Alamos. They packaged waste mixtures with 
organic absorbents, which created reactive and ignitable waste 
forms.
    The specific culprit was off-the-shelf organic kitty 
litter. And the use of this organic material was traced to 
someone writing down ``organic'' instead of ``inorganic''--a 
simple human error. Yet the failure to catch this error 
reflected a much larger systemic failure.
    Two years before the incident, Los Alamos actually stopped 
work that had been mixing waste with organics precisely because 
of the reactivity and ignition risks.
    The lab's so-called ``difficult waste team'' along with 
Federal site officials directed a safety process change that 
would use ``inorganics'' as absorbents.
    The problem was, over the next year and one-half, no one in 
management or among Federal overseers made sure the new 
procedures were followed. So what they thought was fixed 
wasn't. And no one in management or at the Federal level 
reviewed the process to determine why workers had been creating 
dangerous mixtures in the first place--a basic practice of an 
effective safety system.
    As the Los Alamos Lab's own review noted ``the fact that so 
many critical management, safety, and oversight mechanisms all 
failed simultaneously over an extended period of time.are of 
significant concern.''
    Also of significant concern are patterns of oversight 
failure found to have occurred at the WIPP site. For example, 
at WIPP, both the contractor and feds failed to identify or fix 
shortcomings in equipment, and degraded conditions in the 
mine--over a period of years. These errors led to the 
environmental release and added tens of millions to the cost of 
the recovery operations.
    The failures at these sites contribute to a long story of 
DOE's struggles to conduct adequate oversight of its management 
and operating contractors, which are responsible for much of 
the core activities of the Department.
    Just over two years ago, DOE and National Nuclear Security 
Administration (NNSA) officials came before this committee to 
explain security failures at the Y-12 National Security Site in 
Tennessee. The failures were notoriously exposed when several 
elderly peace activists penetrated the security perimeter of 
the most secure section of the site.
    What was clear from that incident sounds very familiar 
today: what the Feds thought was working wasn't. Site officials 
trusted the contractors were doing what they were supposed to 
do, without checking. Federal line oversight had failed.
    We were told then that the successful reliance on 
Department contractors depends on strong and clear lines of 
accountability and on meaningful and consistent measurement of 
contractor performance. We were promised that actions would be 
taken to address the shortcomings.
    Yet we have again learned from GAO that the DOE and NNSA 
have yet to make significant progress to make the necessary 
reforms with regard to measurement of contractor performance. 
This is not acceptable.
    Today, we'll hear from Department officials and the GAO, 
all of whom can help explain the costly oversight failures at 
WIPP and Los Alamos, what is being done and what must be done 
to fix those problems, at the sites and across the complex.
    I hope this hearing helps to identify what is necessary for 
DOE to develop an oversight system that can effectively 
identify and address safety and security issues before they 
become costly mistakes.

    Mr. Murphy. I now recognize the ranking member from 
Colorado, Ms. DeGette, for 5 minutes.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman.
    And, again, I want to thank you for your comity in holding 
the hearing till I got here. As you know, the President was 
briefing the Democratic caucus, and I felt like I owed him to 
listen to what he had to say.
    And I am particularly glad you waited for me because when I 
heard your opening statement it was deja vu all over again to 
me, because I have been on this O&I panel for most, if not all, 
of the incidents that you discussed.
    We have had over a dozen hearings since I have been here to 
examine oversight failures and contractor mismanagement at the 
DOE NNSA Nuclear Complex. A perusal of the GAO testimony today 
reveals a string of mishaps and management failures over the 
last decade involving these sites. And that is why, for years, 
DOE and NNSA have remained on the agency's high-risk list for 
Federal programs highly susceptible to mismanagement and waste.
    The problems have been costly and disruptive. For example, 
in 2004, which was over a decade ago, there were so many 
incidents at Los Alamos that the lab director shut down the 
entire facility for several weeks to address them. A few years 
later, at a hearing on lab security, our beloved chairman 
emeritus, John Dingell, observed, quote, ``I feel a little bit 
like this is the movie 'Groundhog Day.' For some reason or 
another, DOE has proven itself incapable of managing this 
critical security and preventing recurring problems.'' That was 
in 2007.
    Now, as you mentioned, in July 2012, the DOE NNSA complex 
was in the news again because these protestors with basic tools 
managed to cut the fence at Y-12 and gain access to the area 
surrounding a highly enriched uranium storage facility. This 
was supposed to be one of the most secure facilities in the 
country, but, as you said, a small group of aging activists, 
including an 82-year-old nun, were able to access the compound 
uninterrupted by security. And if you haven't seen those 
videos, just watch them. It is chilling.
    As I said in a hearing about that incident, without good 
oversight, serious issues won't be identified and fixed, and 
the results could be disastrous. I can't think of any reason 
why we would want to decrease our oversight of these 
facilities, inhibit the ability of oversight to review site 
actions, or reduce accountability for those responsible for 
keeping the nuclear sites safe. That was in 2012.
    Now, we quickly learned that the Y-12 fiasco was not an 
isolated event. Last year, a waste drum packed by a Los Alamos 
contractor managed to burst open and contaminate the Nation's 
only transuranic waste repository. Called the Waste Isolation 
Pilot Plant, or WIPP, this facility is supposed to house most 
of the Nation's low-level, cold-war-generated nuclear waste. 
This incident resulted in closing the facility perhaps for 
years. It will also cost the taxpayer millions of dollars to 
clean up.
    In the last several decades, we have seen the DOE use a 
range of strategies to oversee their contractors. And I do want 
to say I think the DOE has made some efforts. After concerns 
that hands-on oversight was burdensome and ineffective, DOE and 
NNSA adopted a less intrusive oversight strategy. The new 
model, which had reliance on contractor assurance systems, was 
supposed to let contractors assess performance and provide data 
for Federal oversight efforts.
    Nonetheless, since the implementation of this strategy 5 
years ago, we continue to have incidents that make me question 
this approach. I mentioned the security incident at Y-12. Y-12 
was one of the first facilities NNSA affirmed as having in 
place an effective and mature contractor assurance system 
capable of identifying risks and weaknesses. But this system 
failed, and the committee had several hearings to see what went 
wrong. We received assurances from the DOE that they had 
learned lessons from the past and were committed to 
implementing the new management and performance measures. 
Nonetheless, the more recent incidents involving WIPP suggest 
this oversight framework is not where it needs to be.
    So where are we now? I think it is safe to say this new 
oversight framework needs major retooling. Mr. Chairman, I 
don't know if we are back to square one. I certainly hope we 
are not. But, at a minimum, we need to establish a clear path 
forward. I hope DOE and NNSA will share some ideas so they can 
actually make progress in implementing the new framework. If 
excessive transactional oversight is not the answer and 
reliance on a contractor assurance system is not the answer, 
then what is the answer?
    And we need to figure this out pronto, Mr. Chairman, not 
just because of these two incidents but because the missions at 
NNSA sites are critical to our Nation's security.
    In response to the GAO report, NNSA outlined plans for a 
new corporate policy that will form a comprehensive framework 
for a contractor assurance system. I don't even know what that 
means, Mr. Chairman, but I hope we can get some answers today 
about how that new policy will result in significant and 
effective changes at the agency.
    We have been going in circles, and we have to stop doing 
that. So I hope we can see some changes come out of the WIPP 
accident investigations and GAO's latest report. We are going 
to be vigilant, but I have to be honest, I am not overly 
optimistic.
    Thanks, and I yield back.
    Mr. Murphy. The gentlelady yields back.
    I now recognize the gentlewoman from Tennessee and the vice 
chair of the full committee, Mrs. Blackburn, for 5 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman.
    And I am not going to take 5 minutes, and I will yield the 
time to whomever would like it. But I am going to pick up right 
where Ms. DeGette left off, talking about Y-12.
    And as we conducted that hearing and the assurances that we 
were given that things were going to be more closely watched, 
and now we find ourselves, as Chairman Murphy said, looking at 
a hearing where someone either wasn't paying attention in 
spelling class or science class or didn't know the difference 
and went on to inappropriately use an organic kitty litter.
    The problem for us is, not only is this expensive--you are 
talking about $551 billion being the estimate to clean this up, 
to clean it up, and to get the facility operational--you also 
look at the impact that this has on nuclear-generated power and 
on storing that waste.
    And in Tennessee, where Y-12 is located--and I was up at 
Oak Ridge the week before last and over at TVA and out at the 
Watts Bar Plant. And the safe storage of that nuclear waste, as 
we bring the second Watts Bar reactor on line--it is about 95 
percent complete right now--this is something of tremendous 
concern.
    So we are looking for answers. And I think, more than just 
answers, we are looking for responsible action and a way to 
solve this so that best practices and protocols are in place 
and we are not finding ourselves back at a hearing saying, 
well, we learned a lesson, but we really didn't learn a lesson, 
and we took no actions from the lesson we were supposed to 
learn.
    With that, Mr. Chairman, I will yield to the gentleman from 
Texas.
    Mr. Burgess. I thank the gentlelady for yielding.
    I have been on this subcommittee for over 10 years now. 
This has been a recurrent theme that comes up over and over 
again. So I want to echo what other members have said, that it 
is important to get this right and to get this solved. We are 
talking about the Nation's nuclear secrets. This should be the 
most closely guarded and where the greatest attention to detail 
should be placed to security issues, and we keep having to come 
here and discuss breaches.
    I do want to acknowledge the help of the Government 
Accountability Office and, in particular, Allison Bawden, who 
is one of our witnesses today, who has been enormously helpful 
to our staff through this and other issues.
    And, Mr. Chairman, I will yield back the balance of my 
time.
    Mr. Murphy. The gentleman yields back.
    We are waiting for the ranking member, Mr. Pallone, to come 
in, but while we are waiting for him, I thought I would at 
least take the time to introduce the witnesses, unless anybody 
else on this side wants the rest of his time? I suspect not.
    All right. We will save some time here.
    Today's panel is the Honorable Madelyn Creedon, the 
Principal Deputy Administrator for the National Nuclear 
Security Administration.
    Welcome.
    Mark Whitney, the Acting Assistant Secretary for the Office 
of Environmental Management at the Department of Energy.
    Mr. Whitney is also accompanied by Theodore Wyka--did I 
pronounce that correctly?--the Chairperson of the Accident 
Investigation Board and the Chief Nuclear Officer in DOE's 
Office of Environmental Management.
    We also have Allison Bawden, the Acting Director of the 
Natural Resources and Environment team at the Government 
Accountability Office.
    Maybe I will just proceed, if that is OK with you, Ms. 
DeGette----
    Ms. DeGette. Yes.
    Mr. Murphy [continuing]. Just to go ahead and start with 
the swearing in?
    Ms. DeGette. Yes.
    Mr. Murphy. All right. So let's do that.
    So you are aware that the committee is holding an 
investigative hearing and, when doing so, has the practice of 
taking testimony under oath. Do any of you have an objection to 
testifying under oath?
    Everyone agrees to do that.
    The Chair then advises you that, under the rules of the 
House and rules of the committee, you are entitled to be 
advised by counsel. Do any of you desire to be advised by 
counsel today?
    All the witnesses say no.
    In that case, if you will please rise and raise your right 
hand, and I will swear you in.
    [Witnesses sworn.]
    Mr. Murphy. The witnesses have answered ``yes,'' so you are 
now under oath and subject to the penalties set forth in Title 
18, section 1001 of the United States Code.
    I will let our first witness start a 5-minute summary. At 
any point, we may have the ranking member then give--so I will 
recognize you now, Ms. Creedon, for 5 minutes.
    If you want to turn on the mic, pull it close, and watch 
the lights in front of you.
    Thank you.

STATEMENTS OF MADELYN CREEDON, PRINCIPAL DEPUTY ADMINISTRATOR, 
NATIONAL NUCLEAR SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY; 
  MARK WHITNEY, ACTING ASSISTANT SECRETARY FOR ENVIRONMENTAL 
 MANAGEMENT, DEPARTMENT OF ENERGY, ACCOMPANIED BY THEODORE A. 
  WYKA, CHIEF NUCLEAR SAFETY ADVISOR FOR THE DEPUTY ASSISTANT 
SECRETARY FOR SAFETY, SECURITY, AND QUALITY PROGRAMS, OFFICE OF 
  ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY, AND FORMER 
 CHAIRMAN, ACCIDENT INVESTIGATION BOARD, DEPARTMENT OF ENERGY; 
 AND ALLISON B. BAWDEN, ACTING DIRECTOR, NATURAL RESOURCES AND 
         ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

                  STATEMENT OF MADELYN CREEDON

    Ms. Creedon. Thank you, Mr. Chairman, Ranking Member 
DeGette, and members of the subcommittee. I want to thank you 
for the opportunity today to discuss the radiological release 
at the Waste Isolation Pilot Plant, or WIPP.
    I am pleased to be joined today by Mark Whitney, the Acting 
Assistant Secretary of Energy for Environmental Management. We 
have provided written testimony to the subcommittee and 
respectfully ask that it be submitted for the record.
    On February 14, 2014, a radiological release occurred in 
the Waste Isolation Pilot Plant in New Mexico when a drum, 
which had been shipped from Los Alamos National Laboratory, 
experienced an exothermic reaction that led to 
overpressurization and breach, causing a release of a portion 
of the drum's contents.
    The specifics of this radiological release at WIPP and the 
subsequent restart activities will be addressed by Mr. Whitney.
    While the Department of Energy's National Nuclear Security 
Administration, NNSA, holds the overall management and 
operating contract for the Los Alamos National Laboratory, the 
Department of Energy's Office of Environmental Management is 
the program lead for legacy waste cleanup activities performed 
at LANL and for the operation of WIPP. NNSA is, however, 
responsible for the overall site operations.
    That said, I want to assure you all that all of us at DOE 
take this unintentional release of radioactive material very 
seriously, as we do all significant events.
    What is most troublesome about this event is that, as the 
accident investigation determined, it was preventable. It will 
also be costly to fix and has left us without a true waste 
repository for an indeterminate period of time. And this is 
simply unacceptable.
    Today I will focus on the actions that the NNSA has taken 
since the event and highlight a few ongoing initiatives we are 
pursuing to improve the governance and oversight at NNSA sites.
    NNSA and the Office of Environmental Management have taken 
corrective actions in response to the WIPP incident. This 
includes both long-term and short-term compensatory measures. 
These measures will address the underlying issues and problems 
that contributed to the errors in packaging the legacy waste.
    NNSA and EM, working with the other components of the 
Department of Energy, have realigned the Federal program and 
oversight responsibility for legacy waste materials. The 
responsibility has been transferred from the local NNSA field 
office to a newly established environmental management field 
office.
    We have also held our management and operating contractor 
at the Los Alamos National Laboratory responsible and 
accountable for their part in allowing conditions to develop 
that led to this event. The M&O's fee for operating the 
laboratory was reduced drastically. We did not grant a year of 
award term, and we took back a year of award term that had 
previously been awarded. Award term is a year of the contract. 
So we did not give them an additional year on the contract, and 
we took back a previously awarded additional year on their 
contract. We are also in the process of modifying this M&O 
contract to allow EM to have more direct control over their 
work at Los Alamos in the near term and then to modify their 
contracting strategy in the long term.
    NNSA is also working on several fronts to improve our 
overall approach to site governance. We have kicked off two 
specific initiatives. The first is to examine our contracting 
strategy to ensure that we incentivize the right behaviors 
while also holding our labs and sites accountable. The second 
initiative is to better define the NNSA site governance model, 
with specific attention to identifying clear expectations 
regarding contract management and oversight and clarifying the 
roles and responsibilities between the NNSA field and 
headquarters elements and, in the case of Los Alamos, the 
Office of Environmental Management as well.
    In conclusion, I want to assure you that the Department 
understands the seriousness of this event. We have taken 
numerous concrete and aggressive actions to address the 
specific events and are also looking at governance generally. 
These actions will help us ensure that we do not repeat the 
mistakes that gave rise to this incident and help improve 
operations across the entire NNSA enterprise.
    With that, I thank you, and I look forward to your 
questions.
    [The prepared statement of Ms. Creedon follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Mr. Murphy. Thank you.
    Mr. Whitney, we will have you go next.

                   STATEMENT OF MARK WHITNEY

    Mr. Whitney. Thank you, Mr. Chairman, Ranking Member 
DeGette, and distinguished members of the subcommittee. Thank 
you for the opportunity to share our commitment and vision on 
the Department of Energy's ongoing recovery of the Waste 
Isolation Pilot Plant.
    Safe performance of work is our overriding priority, and 
the Department's first responsibility is to protect the 
workers, the public, and the environment. Safety first is the 
clear expectation behind all of our decisions and our 
activities. The Secretary and I continue to set the expectation 
for the EM workforce that safety is integral to accomplishing 
the mission.
    WIPP's primary mission is to safely and permanently dispose 
of the Nation's defense-related transuranic waste, which is a 
byproduct of nuclear weapons research and production, facility 
dismantlement, and site cleanup.
    On February 5, 2014, a vehicle used to transport salt 
caught fire in the WIPP underground. Workers were safely 
evacuated, and the underground portion of WIPP was shut down, 
but the fire resulted in minor smoke inhalation to six workers. 
It did not adversely, however, impact the public or the 
environment.
    On February 14, 2014, a second unrelated event occurred 
when an air monitor measured airborne radioactivity close to 
the location where waste was being emplaced. No employees were 
underground at the time. The next day, low levels of airborne 
radioactive contamination were detected, the result of when a 
small amount of radioactivity leaked by the exhaust duct 
dampers through the unfiltered exhaust ducts and escaped 
aboveground.
    As a result of these events, the WIPP repository is shut 
down and is currently not accepting waste shipments.
    The Department established an Accident Investigation Board 
to fully investigate the event and understand the causes and 
factors that contributed to the radiological release. The AIB 
identified direct causes, root causes, and contributing causes 
to the radiological release.
    While the investigation focused on the activities that 
contributed to the breached drum in the WIPP underground, the 
conclusions and analyses represent an opportunity to assess and 
benchmark all of our operations and apply lessons learned 
across the EM complex.
    We have made considerable progress towards safely 
recovering WIPP over the last 16 months, including the 
immediate response to the incidents, our investigation to the 
incidents, the development of corrective action plans, and the 
issuance and implementation of the WIPP recovery plan.
    We are strengthening safety management programs such as 
nuclear safety, fire protection, emergency management, and 
radiological control, reestablishing a bounding safety 
envelope, and responding to all of our oversight organizations' 
concerns.
    Underground entries were necessarily limited in the weeks 
following the incidents, but they are now safely performed 
daily. Restoration of the underground includes radiological 
surveys, radiological buffers in noncontaminated areas, ground 
control stability inspections, roof bolting, and equipment 
maintenance.
    Work is being performed also safely in contaminated areas. 
Adequate ventilation is required, however, for habitability of 
the underground, including dust removal during mining and 
removal of exhaust fumes during diesel engine operations. 
Increasing ventilation capacity is a principal requirement for 
the safe underground operations, and our plan is to increase 
ventilation over the next year to support resumption of 
operations and ultimately to increase the airflow back to pre-
incident rates, although that will take several years.
    EM has worked diligently to improve oversight at the 
headquarters and field level. To ensure continued health and 
safety to the workers, the public, and the environment, the 
Department must provide effective, comprehensive oversight of 
work at every phase and level. EM is committed to strengthening 
Federal and contractor oversight competencies. Many of these 
actions have already been implemented.
    In summary, WIPP is an important national resource that we 
are working hard to recover. DOE will resume disposal 
operations at WIPP but only when it is safe to do so. The 
safety of workers, the public, and the environment is first and 
foremost. And we continue to keep the community and 
stakeholders, including Congress, informed of WIPP recovery in 
a transparent manner.
    Thank you.
    [The prepared statement of Mr. Whitney follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Murphy. Thank you.
    Mr. Wyka, we understand you are not testifying today but 
you are going to be available to answer questions. Thank you.
    Ms. Bawden, you are recognized for 5 minutes.

                 STATEMENT OF ALLISON B. BAWDEN

    Ms. Bawden. Chairman Murphy, Ranking Member DeGette, and 
members of the subcommittee, thank you for inviting me today to 
discuss GAO's report on the framework established by the 
Department of Energy and its National Nuclear Security 
Administration for overseeing management and operating 
contractors. These M&O contractors are trusted by the 
Government to achieve some of its most sensitive national 
security missions.
    GAO has reported for decades on the management challenges 
DOE faces for contract administration and oversight. My 
testimony today highlights three findings from GAO's recently 
completed work on NNSA's framework for overseeing its M&O 
contractors, as well as preliminary observations from GAO's 
ongoing work that includes examining oversight of WIPP.
    These findings from our work and the parallels drawn to 
oversight of WIPP are particularly important in light of two 
competing narratives about DOE oversight of M&O contractors.
    On the one hand, there are the series of safety and 
security incidents on which GAO and others have reported for 
years. Many of these incidents have indicated the need for 
better oversight, such as the 2012 security incident at Y-12, 
2008 security performance issues at Livermore, and safety and 
security performance issues at Los Alamos in 2004 and 2006.
    On the other hand, there is discussion of Federal 
micromanagement of M&O contractors and excessive and burdensome 
requirements that affect productivity.
    DOE's current oversight framework, which was established in 
2011 to bridge these two narratives, requires M&O contractors 
to develop assurance systems, or CAS, that provide data to help 
contractors drive continuous improvement in their operations 
and that can be leveraged, when appropriate, to improve the 
efficiency of Federal oversight by relying on the contractor-
generated information from CAS.
    A 2011 NNSA policy elaborates on DOE's framework by 
identifying assessments Federal overseers should conduct to 
determine when it is appropriate to leverage CAS for oversight. 
These are: the risk of an activity, the maturity of the 
contractor's CAS or a way of thinking about the reliability of 
the information provided by the contractor systems, and the 
contractor's past performance.
    NNSA's policy describes balancing the oversight approaches 
that can result from these assessments. On one side is 
transaction-based oversight or direct oversight, such as 
inspections and performance testing, particularly for high-risk 
or high-hazard activities. And on the other side is system-
based oversight, where NNSA can rely on contractor-generated 
information it receives from contractor systems.
    In our recently completed work regarding NNSA's 
implementation of the framework for overseeing M&O contractors, 
we found the following:
    First, NNSA has not fully established policy or guidance 
for implementing its framework to oversee M&O contractors. 
Specifically, at the headquarters level, NNSA does not have 
guidance to fully support conducting the three assessments 
required by its policy. While NNSA has some guidance for 
assessing risk, it has no policy or guidance for assessing the 
maturity of CAS or for evaluating past performance. We 
concluded that, without this policy or guidance, oversight 
approaches could over-rely or under-rely on information from 
CAS.
    Second, NNSA field offices have developed their own 
procedures for conducting assessments of risk, CAS maturity, 
and contractor past performance; however, these procedures are 
not complete and differ among field offices. We concluded that 
differences among these procedures affect NNSA's understanding 
at the enterprise level of how oversight is conducted. For 
example, when field offices use different procedures for 
assessing CAS maturity, it is difficult to compare the maturity 
of these systems.
    Third, NNSA no longer uses the process it established in 
2011 policy to review the effectiveness of oversight approaches 
in place at each contractor site and field office, including 
how CAS is being used for oversight. This process was 
discontinued after the Y-12 security incident and has not been 
replaced, in essence eliminating the one process NNSA had that 
would have allowed the agency to determine whether oversight 
approaches are consistently applied.
    Regarding WIPP, our preliminary observations on oversight 
of WIPP underscore the importance of having clear guidance on 
when and how to rely on contractor information for oversight. 
Notably, according to DOE's Accident Investigation Board 
report, NNSA's Los Alamos field office, responsible for 
overseeing waste packaging, was over-reliant on CAS for 
environmental compliance oversight and that this reliance was 
not consistent with an NNSA review that observed CAS was still 
maturing.
    Thank you again for having me today. I look forward to 
responding to your questions.
    [The prepared statement of Ms. Bawden follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Murphy. Thank you.
    I now recognize the ranking member of the full committee, 
Mr. Pallone, for his opening statement of 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman, for letting me, you 
know, go a little late here.
    Today's hearing obviously focuses on oversight failures at 
the Department of Energy's Waste Isolation Pilot Plant, or 
WIPP. And the incidents there raise broader questions about how 
to conduct effective oversight across the DOE and NNSA Nuclear 
Complex.
    On this committee, there has long been bipartisan support 
for congressional oversight to ensure that DOE is effectively 
managing its contractors and keeping the nuclear complex safe. 
And DOE and NNSA have shown repeatedly that our continued 
oversight is needed.
    For nearly two decades now, this committee, GAO, and DOE's 
inspector general have identified a wide array of safety and 
security issues facing DOE at NNSA sites. I was going to 
mention them. Some of them, perhaps all of them, have already 
been mentioned, but I did want to mention again.
    In 2004, Los Alamos National Laboratory suspended 
operations after a student was partially blinded in a laser 
accident and classified information went missing. In 2006, a 
drug raid in a mobile-home park found a large number of 
classified documents that had been removed from an NNSA lab. In 
2007, a GAO report revealed that NNSA weapons laboratory 
workers had faced nearly 60 serious accidents or near misses 
over the previous 7 years. In 2008, GAO found security and 
protection of weapons-grade nuclear material severely lacking 
at Lawrence Livermore National Laboratory due in part to NNSA's 
deficient oversight. And then, in 2012, three trespassers 
managed to gain access to a secure area directly adjacent to 
some of the Nation's critically important weapon-related 
facilities at Y-12 National Security Complex in Oak Ridge, 
Tennessee.
    This committee has held a number of hearings on these 
topics to understand what went wrong and what DOE and NNSA were 
doing to ensure this didn't happen again in the future. But now 
we find ourselves dealing with today's topic, which has been 
mentioned already, in February 2014, when WIPP experienced both 
an underground truck fire and a radiological release from a 
nuclear waste drum within a 9-day period, and operations at 
WIPP were subsequently shut down. The facility obviously has 
not reopened, and it may cost over half a billion dollars to 
make it fully operational again.
    I just think it is an alarming record. The DOE and NNSA 
facilities guard some of the Nation's most dangerous nuclear 
materials, and for too long the DOE and NNSA have allowed 
mismanagement and oversight failures to continue, and we need 
answers today about how that will change.
    Effective contractor oversight is a key component of those 
changes. DOE and NNSA rely heavily on contractors to carry out 
their missions' activities. In 2010, DOE changed its system for 
contractor oversight to be more hands off, and they planned to 
rely on the contractor assurance systems developed by the 
contractors themselves to catch problems and provide data for 
Federal oversight efforts.
    In our 2012 hearing on the Y-12 incident, the committee 
concluded that DOE and NNSA needed to do a better job of 
overseeing their contractors. Yet here we are today with recent 
documentation from GAO and DOE's own accident investigation 
boards that contractor assurance systems across the DOE and 
NNSA complex may not be capable of identifying risks and 
weaknesses.
    Obviously, we have heard the GAO, and I hope to hear 
concrete plans from DOE and NNSA for amending their systems for 
contractor oversight.
    I just want to close by talking about how many billions of 
dollars we have spent to fix these repeated problems across the 
DOE. DOE's Office of Environmental Management and NNSA have 
been on GAO's high-risk list for a long time, largely due to 
their struggles to stay within cost and schedule estimates for 
most major projects.
    Regarding what happened at WIPP, NNSA's written testimony 
today says, and I quote, ``The release, which was subsequently 
determined to have been avoidable, will be costly to fix and 
has left us without a transuranic waste repository for an 
indeterminate period of time,'' unquote.
    The bottom line here is that, when these projects go off 
the rails, taxpayer dollars are at risk, and so are important 
projects that national security depends on. We need to make 
sure taxpayers' money is spent more wisely.
    And I want to thank our witnesses and this panel.
    You know, the committee spent decades doing oversight on 
these issues. Both of our chairmen and our Ranking Member 
DeGette have been involved in this for a long time, and we do 
intend to keep a close eye as we move forward. Thank you.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Today's hearing will focus on oversight failures at the 
Department of Energy's Waste Isolation Pilot Plant--or WIPP. 
The incidents there raise broader questions about how to 
conduct effective oversight across the DOE-NNSA nuclear 
complex.
    On this committee, there has long been bipartisan support 
for congressional oversight to ensure that DOE is effectively 
managing its contractors and keeping the nuclear complex safe. 
And DOE and NNSA have shown repeatedly that our continued 
oversight is needed.
    For nearly two decades now, this committee, GAO, and DOE's 
Inspector General have identified a wide array of safety and 
security issues facing DOE and NNSA sites. Let me walk through 
just a few of those.
    In 2004, Los Alamos National Laboratory suspended 
operations after a student was partially blinded in a laser 
accident and classified information went missing.
    In 2006, a drug raid in a mobile home park found a large 
number of classified documents that had been removed from an 
NNSA lab.
    In 2007, a GAO report revealed that NNSA weapons laboratory 
workers had faced nearly 60 serious accidents or near misses 
over the previous 7-year period.
    In 2008, GAO found security and protection of weapons-grade 
nuclear material severely lacking at Lawrence Livermore 
National Laboratory, due in part to NNSA's deficient oversight.
    In 2012, three trespassers managed to gain access to a 
secure area directly adjacent to some of the nation's most 
critically important weapon-related facilities at Y-12 National 
Security Complex in Oak Ridge, Tennessee.
    This committee has held a number of hearings on these 
topics to understand what went wrong and what DOE and NNSA were 
doing to ensure this did not happen again in the future.
    But now we find ourselves dealing with today's topic.
    In February 2014, WIPP experienced both an underground 
truck fire and a radiological release from a nuclear waste drum 
within a nine-day period. Operations at WIPP were subsequently 
shut down. The facility has still not reopened, and it may cost 
over half a billion dollars to make it fully operational again.
    This is an alarming record. The DOE and NNSA facilities 
guard some of the nation's most dangerous nuclear materials. 
And for too long, the DOE and NNSA have allowed mismanagement 
and oversight failures to continue. We need answers today about 
how that will change.
    Effective contractor oversight is a key component of those 
changes. DOE and NNSA rely heavily on contractors to carry out 
their mission activities. In 2010, DOE changed its system for 
contractor oversight to be more hands-off. They planned to rely 
on the contractor assurance systems--developed by the 
contractors themselves--to catch problems and provide data for 
Federal oversight efforts.
    In our 2012 hearing on the Y-12 incident, the committee 
concluded that DOE and NNSA needed to do a better job of 
overseeing their contractors. Yet here we are today with recent 
documentation from GAO and DOE's own accident investigation 
boards that contractor assurance systems across the DOE-NNSA 
complex may not be capable of identifying risks and weaknesses.
    I look forward to hearing GAO share their findings today, 
and I hope to hear concrete plans from DOE and NNSA for 
amending their systems for contractor oversight.
    I want to close by talking about how many billions of 
dollars we have spent to fix these repeated problems across 
DOE. DOE's Office of Environmental Management and NNSA have 
been on GAO's ``high risk'' list for a long time, largely due 
to their struggles to stay within cost and schedule estimates 
for most major projects.
    Regarding what happened at WIPP, NNSA's written testimony 
today says, ``The release, which was subsequently determined to 
have been avoidable, will be costly to fix, and has left us 
without a transuranic waste repository for an indeterminate 
period of time.''
    The bottom line here is that when these projects go off the 
rails, taxpayers' dollars are at risk and so are important 
projects our national security depends on. We need to make sure 
taxpayers' money is spent more wisely.
    I want to thank all of our witnesses for being here today. 
This committee has spent decades doing oversight on these 
issues, and I assure you we will keep a close eye moving 
forward.
    Thank you.

    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Murphy. Thank you.
    The gentleman yields back.
    I now recognize myself for 5 minutes of questions.
    First of all, Mr. Wyka, you ran the Accident Investigation 
Board and determined that the radiological incident was 
preventable. Am I correct?
    Mr. Wyka. Yes, sir.
    Mr. Murphy. And you also determined the systemic root cause 
was that site offices, or the Feds, I think you said failed to 
ensure that Los Alamos adequately implemented hazard controls 
in waste packaging. Is that correct?
    Mr. Wyka. Close. It's that they inadequately developed and 
implemented the repackaging and treatment procedures that 
incorporated suitable hazard controls and included a rigorous 
review and approval process.
    Mr. Murphy. Thank you.
    And that contributing cause was failure of oversight from 
line officers at headquarters; is that correct?
    Mr. Wyka. There were several contributing causes, or what I 
would call missed opportunities. And those included the 
characterization and certification program and process itself, 
the land safety procedures that they use, the hazard 
identification and control mechanisms and processes that they 
used at the lab, as well as the training and qualification of 
both the workers and the first-level supervisors, the 
contractor assurance system, and oversight at all levels, 
including the Federal office and headquarters.
    Mr. Murphy. So multiple levels of failures of oversight.
    Mr. Wyka. Yes, sir.
    Mr. Murphy. Thank you.
    Ms. Creedon and Mr. Whitney, if you could answer this, too. 
Do either of you have any disagreements with the Department's 
Accident Investigation Board findings?
    Ms. Creedon. No, sir.
    Mr. Murphy. Mr. Whitney?
    Mr. Whitney. No, sir.
    Mr. Murphy. So you agree that this incident was preventable 
if handled differently?
    Ms. Creedon. Yes, sir.
    Mr. Whitney. Yes, sir.
    Mr. Murphy. Thank you.
    Now, Ms. Creedon, you were confirmed for your position last 
July 2014, but you actually have long experience with DOE and 
NNSA and are generally familiar with the Department's oversight 
challenge. Is that a fair statement?
    Ms. Creedon. That's correct.
    Mr. Murphy. Thank you.
    So testimony before this committee over the years has 
identified numerous security problems--you heard that stated by 
multiple members up here--but also safety process problems at 
Los Alamos which go back 15 years. And we heard a partial list 
in the GAO testimony this morning.
    To take another example, in testimony just 2 years ago, we 
learned that the Los Alamos site office--the Feds had closed 
half of 62 safety system corrective actions without adequate 
verifications.
    So is it truly any surprise to you that Los Alamos Feds did 
not know that workers spent a year and a half incorrectly 
mixing hundreds of barrels of radiological waste?
    Ms. Creedon. Mr. Chairman, one of the fundamental problems 
with this particular failure is that--well, there are many, as 
the report indicated, but one of them is clearly the failure of 
the CAS approach and the CAS system at Los Alamos. So Los 
Alamos did not have a mature CAS system, and it had not picked 
up these issues.
    One of the primary weaknesses in the CAS system, as we have 
now gone back and looked at it, was it was inadequate with 
respect to overseeing subcontractors. And this is a fundamental 
problem.
    The other problem--and this is a problem that we have begun 
to address already--is that the lines of oversight at Los 
Alamos were not clear. So one of the Secretary's initial 
actions and responses was to clarify these lines of authority 
and responsibility for oversight at Los Alamos.
    And the first action that we took was to take the 
Environmental Management personnel who were imbedded in the 
NNSA field office and Mr. Whitney, at the direction of the 
Secretary, established a standalone EM field office. And then I 
will let him go into the details of that particular field 
office.
    But the other thing that we are doing is also changing the 
way that they oversee the contract itself so they will have 
more authority and responsibility so these lines will be 
clearer in the future.
    Mr. Murphy. So, along those lines, let me probe a little 
bit deeper. So, from your experience, what is it that makes 
ensuring effective safety systems oversight so difficult to 
sustain at Los Alamos?
    Ms. Creedon. So one of the things that I think we have to 
look at is ensuring that the contractors really do have in 
place for their own purposes an internal oversight capability.
    The Department historically and NNSA historically has 
focused on those very high-hazard activities of the 
criticality, safety, and those are the ones that have had the 
focus and attention. NNSA historically has had to balance some 
of its oversight responsibilities. So we have about 75 people 
in the Los Alamos and NNSA field office, and there are on the 
order of 12,000 contractor employees at Los Alamos. So, with 
that ratio, we have to make sure that our initial focus, our 
most intense focus is associated with those high-hazard 
activities.
    And these activities that were associated with the 
repackaging of this legacy waste in this overarching construct 
were considered to be low-hazard activities. So for that, we 
rely on the systematic approach at Los Alamos.
    Mr. Murphy. So it being low--well, I see I am out of time. 
I will follow up with that later on. Thank you.
    Ms. DeGette, you are recognized for 5 minutes.
    Ms. DeGette. I want to thank all of our witnesses for 
coming today. And this is an issue that we have been grappling 
with for many years, as you heard in my opening statement.
    I wanted to ask you, Ms. Bawden--I understand that DOE 
contract management, specifically EM and NNSA, have been on the 
high-risk list for a long time. Is that correct?
    Ms. Bawden. Yes.
    Ms. DeGette. Now, that is a list that GAO places agencies 
and programs on that are at increased risk for waste and 
mismanagement; is that right?
    Ms. Bawden. That's right.
    Ms. DeGette. Now, in 2010, the Department launched an 
effort to reform its approach to oversight. I know you are 
familiar with this memo, the 2010 memo from Deputy Secretary 
Poneman called ``Department of Energy Safety and Security 
Reform Plan''; is that right?
    Ms. Bawden. Yes.
    Ms. DeGette. Now, in the safety reform section, it states 
that DOE will provide contractors with, quote, ``the 
flexibility to tailor and implement safety programs in light of 
their situation without excessive Federal oversight or overly 
prescriptive departmental requirements.''
    Are you familiar with that section?
    Ms. Bawden. Yes.
    Ms. DeGette. Now, it says the same thing for security 
reform. Is that right?
    Ms. Bawden. Yes.
    Ms. DeGette. Now, Ms. Bawden, under this new system, NNSA 
was supposed to be able to rely on information from contractor 
assurance systems put into place by the M&O contractors, 
correct?
    Ms. Bawden. Yes.
    Ms. DeGette. And the NNSA was supposed to affirm that the 
systems were mature and effective. Is that right?
    Ms. Bawden. That's correct.
    Ms. DeGette. Now, one of the first NNSA sites to receive 
that affirmation was the Y-12 facility in Tennessee, correct?
    Ms. Bawden. Yes.
    Ms. DeGette. Now, after that facility was affirmed, that is 
when we had the security fiasco where the nun and the other 
people were able to penetrate the compound. Is that right?
    Ms. Bawden. Yes.
    Ms. DeGette. So I understand that after that failure they 
scrapped the affirmation process, correct?
    Ms. Bawden. Yes.
    Ms. DeGette. And so, really, they had no way of affirming 
the maturity or usefulness of these systems.
    Ms. Bawden. They do not have a current process in place.
    Ms. DeGette. All right.
    Now, let me talk to you for a minute about WIPP. I 
understand when the DOE conducted its accident investigation it 
found that the contractor assurance systems for the two M&O 
contractors affiliated with WIPP and Los Alamos failed to 
identify the risks associated with that disaster. Is that 
right?
    Ms. Bawden. Yes.
    Ms. DeGette. Now, your team just completed a comprehensive 
audit, and you found that the NNSA doesn't have the capability 
to evaluate which sites have viable contractor assurance 
systems capable of giving the agency the data that it needs to 
oversee the contractors that run these critical facilities, 
correct?
    Ms. Bawden. They do not have policies in place. That's 
correct.
    Ms. DeGette. OK.
    And the contractor systems at Y-12, Los Alamos, and WIPP 
all failed to prevent major security and safety incidents, 
correct?
    Ms. Bawden. Yes.
    Ms. DeGette. Now, you raised concerns about these 
contractor assurance systems across the entire NNSA complex, 
correct?
    Ms. Bawden. Yes.
    Ms. DeGette. So, at this point, what approach or system is 
NNSA using to conduct oversight at its sites, where literally 
billions of dollars are being spent?
    Ms. Bawden. Thank you for the question.
    NNSA is utilizing many different approaches at its sites 
across the spectrum of available transactional and systems-
based options. What we found is that you really have to go to 
each individual site to figure out whatever site approaches 
they're taking, and information about oversight broadly was not 
available at the headquarters level
    Ms. DeGette. So it is really just sort of, now, catch as 
catch can, whatever people think at the different sites. Would 
that be a fair----
    Ms. Bawden. The field offices are making their decisions at 
each site.
    Ms. DeGette. The field offices are making their decisions 
at each site.
    Ms. Bawden. Uh-huh.
    Ms. DeGette. So does that approach give you confidence the 
Federal Government is applying effective oversight over its M&O 
contractors?
    Ms. Bawden. I think the recommendations that we made that 
were aimed at improving policy, consistency, and fully fleshing 
out this framework would help give us that confidence.
    Ms. DeGette. Now, you know, Ms. Creedon, I know that you 
are all trying to grapple with this, and it has been a complex 
and difficult problem that people have been trying to grapple 
with, really, ever since I have been on this committee, which 
is 1997.
    But I have to say that, since 2002, DOE policies and orders 
have required that all these contractors have these systems. 
But you hear Ms. Bawden say that the compliance is sort of 
catch as catch can among the different agencies.
    What is your response to that?
    Ms. Creedon. As Ms. Bawden said, when the Y-12 event 
occurred, the CAS system at Y-12 had been affirmed. And my 
understanding at the time was that NNSA then determined that, 
clearly, the approach that they had taken to affirming these 
contractor assurance systems was not working and they set it 
aside.
    Since I started at the Department of Energy--I was 
confirmed in July and started in August--one of my 
responsibilities is as the fee-determining official, and part 
of that is to look at how all of these contractors are 
performing. So, among other things, we at the Department have 
changed some of the methodologies with respect to the 
contractor and the contract and have changed some of the 
performance criteria.
    But what I have started to do, which in some respects is a 
compensatory measure for some of these differences, is I meet 
for an entire day with all of our field office managers every 
quarter, and we go through exactly what's going on----
    Ms. DeGette. OK. I don't mean to stop you, but my time has 
expired, and I think it would be really helpful if you could 
supplement your answers to deal exactly with this problem that 
we have of now no cohesion.
    [The information follows:]

        Our oversight policies are implemented through Department of 
        Energy (DOE) Directives that are issued at the department 
        level, and followed by all offices of the DOE, as required. 
        Where specific directive language includes contractor 
        requirements, they are included in DOE contracts. These 
        directives are consistent with statutes and regulations.

    Ms. DeGette. Thank you for your comity.
    Mr. Murphy. We let you go because it was important 
questions you were asking.
    Dr. Burgess, you are recognized for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman.
    Mr. Wyka, I have here, I think, three accident 
investigation reports from the Department of Energy Office of 
Environmental Management, and in each one there is a judgment-
of-need list at the end of the report. And I haven't added them 
up myself, but I am told by staff that there are 122 judgments 
of need in these three reports that the Department and the 
contractors will need to address.
    So let's just ask the obvious question. This is 122 
judgments of need. Is that a lot?
    Mr. Wyka. It's a big number, but I actually don't go for a 
quota for a number. I look at the issues and develop the 
conclusions and judgment of needs based on what we find until 
we sort or resolve the problems.
    A lot of those judgment of needs are more extensive than 
others. Some of them are extent of conditions rather than just 
looking at the event at Los Alamos. It's going to require, you 
know, the Department to look at it from a programmatic 
perspective as well as enterprise-wide.
    Mr. Burgess. But, say, going back over the last 10 years, 
many of these things seem to be recurrent themes. Am I wrong to 
make that assumption?
    Mr. Wyka. No, sir, you are correct. And that's what the 
board concluded in all three investigations, that a lot of 
these issues were brought up in other reviews and assessments, 
both internally and externally, and they weren't addressed as 
repeatable issues, which was another missed opportunity----
    Mr. Burgess. Well, why not?
    Mr. Wyka [continuing]. In several functional areas.
    Mr. Burgess. Why not? I mean, again, I have been on this 
subcommittee for 10 years. We have been dealing with these 
problems every year that I have been on the subcommittee. The 
obvious question is why not, or what is it going to take to get 
these things brought up to standards where we won't be reading 
these types of headlines and, quite honestly, putting our 
workers and contractors at risk?
    So do we have an answer for that?
    Please.
    Mr. Whitney. If you don't mind, sir, I will answer that for 
the Office of Environmental Management.
    Yes, Ted was exactly right. Even with respect to the EM 
contractor at the WIPP site, there were assessments over the 
past years, corrective actions put in place, and they were not 
tracked accordingly.
    We are going to resolve that issue. Among many other things 
that we are doing with respect to oversight at headquarters, we 
have developed a more robust corrective action tracking system, 
a corrective action software hub, and we will assure the 
followthrough on all corrective actions.
    We are also increasing resources in the oversight area for 
headquarters for our Safety, Security, and Quality Programs 
office that really did not have the staffing to implement a 
robust headquarters oversight program.
    We have done the same at the Carlsbad Field Office, 
increasing resources, but, just as importantly, we have 
reorganized the office there. The office previously had the 
production or the waste emplacement group, the folks that were 
responsible for the program, and the folks that were 
responsible for oversight in the same office. And, in fact, 
unfortunately, some folks wore two hats. They were responsible 
for emplacing the waste and for oversight of that activity, 
which is clearly not the right way to approach it.
    So we have reorganized it into an Office of Program 
Management and an Office of Oversight, to ensure that all the 
position descriptions accurately reflect the oversight 
responsibilities. And those are being pulled into performance 
plans of the Federal employee.
    We are doing this across the board at headquarters and 
revamping our oversight program in response to the AIB reports 
and part of our corrective action planning process to include 
really developing a more robust oversight arm. There will be a 
baseline program as well a program that looks at trends across 
the complex and ensures that when a trend develops----
    Mr. Burgess. Yes. If I can just interrupt you, because I am 
going to run out of time. This all sounds wonderful, and I have 
the transcript from the hearing we had after the Y-12 incident 
2 \1/2\ years ago, and I think the same thing was said to us 
then. So, I mean, again, that is the question.
    And, I mean, is Secretary Moniz satisfied with this? Does 
he think this is acceptable from your department, from the 
Department of Energy?
    Mr. Whitney. Sir, I won't speak on behalf of the Secretary, 
but I believe, as Madelyn and I both endorse the 
recommendations from the AIB report and realize things need to 
be corrected, we are taking an approach that I know the 
Secretary is supportive of, which is ensuring that the 
recommendations, and the findings from the Accident 
Investigation Board reports, we are sharing across the complex 
with the EM folks.
    We have worked directly--Ted has--with each site office to 
give individual briefings of the AIB findings, to talk about 
lessons learned, where there may be extent-of-condition issues 
at that site, as well. And then, later this month, we will have 
all of the field offices managers in to----
    Mr. Burgess. I don't mean to be rude, but I am going to 
interrupt, because they are going to cut me off here in a 
moment.
    Acting Secretary Poneman, last time we had this discussion, 
over 2 years ago, he said: Our management principles say that 
we will only succeed by continuous improvement. That was part 
of the process, so it wouldn't just be mindlessly continuing to 
check the box, but it would be vigorous and aggressive. I am 
sorry. We missed the mark, and we need to do better.
    Thank you, Mr. Chairman. I yield back.
    Mr. Murphy. I thank the gentleman.
    I now recognize Mr. Pallone for 5 minutes.
    Mr. Pallone. Thank you.
    Mr. Whitney and Administrator Creedon, since 2002, DOE 
policies and orders have required that each DOE M&O contractor 
have a contractor assurance system.
    In 2011, DOE sought to increase its reliance on these 
systems for oversight purposes; is that correct?
    Ms. Creedon. That's correct.
    Mr. Pallone. OK.
    Now, let me just read from the WIPP accident investigation 
report. It says, and I quote, ``Nuclear Waste Partnership, the 
contractor that packed the drum, has not fully developed an 
integrated contractor assurance system that provided assurance 
that workers perform compliantly, risks are identified, and 
control systems are effective and efficient.''
    And then, I quote, ``The Los Alamos National Security 
Contractor Assurance System was not effective in identifying 
weaknesses,'' end of quote.
    So, again, to both of you, why were valid risk systems not 
in place, and aren't they required to have them?
    Mr. Whitney. Yes, sir. Thank you for the question.
    One, just a correction. Nuclear Waste Partnership did not 
pack the drum. They operate the WIPP facility.
    Mr. Pallone. OK.
    Mr. Whitney. But you're exactly right, and we agree with 
the AIB findings, which stated they did not have an adequate 
contractor assurance system in place.
    Unfortunately----
    Mr. Pallone. And they were required to have them?
    Mr. Whitney. Yes, sir.
    Mr. Pallone. OK.
    So let me ask Ms. Bawden, then, given these findings, the 
Accident Investigation Board made recommendations that M&O 
contractors, NNSA, and the Department put in place viable 
contractor assurance systems and improved field office and 
headquarters oversight of them. Your recent report, however, 
found that NNSA's efforts to do this across the nuclear complex 
has not been adequate or complete.
    So if I could ask Ms. Bawden, weren't these contractors 
already supposed to have the contractor assurance systems in 
place?
    Ms. Bawden. Yes. They were required.
    Mr. Pallone. And what gives the GAO confidence that NNSA or 
EM, for that matter, can adopt the accident report 
recommendations on approved oversight, given the findings of 
your recent report?
    Ms. Bawden. Our findings, similar to what the Accident 
Investigation Board report found, were that revisions to 
policies, improvements in policies are needed. And the proof is 
really going to be in the implementation of those policies once 
they're completed. And we will look at that as part of the 
followup on the recommendations that we've made.
    Mr. Pallone. But what--you know, so, again, I will ask 
Administrator Creedon and Mr. Whitney.
    I mean, I guess you've, you know, been kind of answering 
this question already, but, you know, why should we have any 
confidence that, you know, things are going to change?
    Ms. Creedon. You know, that is an extraordinarily difficult 
question. And it is certainly something that the Secretary is 
committed to, the Administrator is committed to, I am committed 
to, is trying to get this right.
    It's pretty clear that the processes that were in place 
when this event happened weren't right. They didn't catch the 
events. The contractor assurance system didn't catch what was 
going on. We didn't catch what was going on.
    And so now we've done a bit of a pause, and we are now in 
the process of once again trying to put in place these policies 
that will figure out how to ensure that this contractor 
assurance system is reliable.
    One of the measures, I think, going forward is to see if we 
begin to agree with them. So, even in the last year, it's 
pretty clear that the contractor assurance systems at some 
sites are better than other sites. And it's putting these 
processes in place, which we've embarked on doing again. We 
hope we get it right this time.
    Mr. Pallone. All right.
    Let me just ask Mr. Whitney, you know, about the cost. I 
mentioned in my opening--there's only a minute left here.
    How much is it going to cost to make WIPP fully operational 
again? And when do we expect that to happen? And what are we 
losing by shutting down WIPP for several years? How much is 
that going to cost the Department?
    Mr. Whitney. Yes, sir.
    We anticipate the cost to resume operations--which, 
initially, our target for that is by the end of March of 2016--
will be approximately $242 million.
    To resume operations at the pre-incident pace will require 
additional ventilation, and that will require a capital 
construction project. And the rough order of magnitude of where 
we are in the planning process for that project is between $77 
million and $310 million.
    So I can't say exactly how much it will cost to get to the 
point where we were pre-incident, but it will take several 
years to get to that point.
    Mr. Pallone. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Murphy. Thank you. The gentleman yields back.
    Now I recognize Mr. Bucshon for 5 minutes.
    Mr. Bucshon. Thank you, Mr. Chairman.
    Again, this is another instance, I think, that maybe a lot 
of good people are put in a bad spot. And I appreciate all your 
testimony and what you are trying to do to improve the 
situation.
    From your testimony, Ms. Bawden, it appears that the 
oversight framework shifts from one administration to the 
other. This is not a criticism of any administration in 
general. My concern is that come a new administration, whomever 
that may be, that somebody may want to develop a whole new 
approach to oversight.
    I fully understand that political appointees carry out 
policy issues of whatever administration is in place. However, 
it seems to me on critical issues like this that maybe there 
needs to be people in charge that span administrations, that 
don't have the ability to change policy every time something 
changes. That doesn't make any sense to me.
    And the reason I say this, because across the Government 
what happens is agencies wait you out. If the agency itself, as 
a whole, doesn't like what you are trying to do, they just wait 
you out until the next people come, and they sustain a problem 
that just keeps happening.
    You have heard from many of the members who have been on 
this subcommittee for years, maybe decades, that this is a 
recurring theme. It is going continue to recur. We are going to 
be here probably 2 or 3 years from now, and people in your 
positions, who are from the next administration, are going to 
be, unfortunately, put in front of us trying to explain what an 
agency has been doing, literally, for decades that you can't 
change, and that is unfortunate.
    So, Ms. Bawden, do you think this is wise, this is a wise 
way to run something as critical as this? I mean, is this wise?
    Ms. Bawden. What we looked at in the course of our review 
was the policy that was in place and how it has been 
implemented. With respect to part of the question that you 
asked on sort of leadership and political leadership, the Mies-
Augustine panel that was commissioned by Congress to review 
governance did look at that issue, but GAO has not.
    Mr. Bucshon. Again, it is not a criticism of political 
appointees. This is a criticism of a system that may not be 
wise in certain critical areas of agencies. I get you are going 
to have a secretary of energy, I get you are going to have 
people appointed down the line, but certain areas, maybe, it is 
just not appropriate.
    I mean, Ms. Creedon, what do you think? First of all, you 
are a graduate of University of Evansville, which is in my 
hometown, so welcome.
    What do you think?
    Ms. Creedon. So I think one of the issues now is the NNSA 
has been the subject of a number of investigations over the 
last several years--I mean, for decades actually, but a lot of 
them over the last several years--and they are all very 
critical. And one of the things that we have been seeing is we 
do, the Federal Government does an annual Federal Employees 
Viewpoint Survey, and by and large the workforce at NNSA is 
very good. The workforce at our labs are----
    Mr. Bucshon. And, again, I want to make it clear, I am not 
criticizing the workforce. It is the system, right?
    Ms. Creedon. Exactly. They are very good. But part of the 
problem is, they are not very happy and they are not very happy 
with the state of affairs. So I am very hopeful this time that 
they want to get out of this hole. Everybody wants to get out 
of this hole.
    Mr. Bucshon. And I am sure they do.
    Ms. Creedon. So hopefully as we work towards it this time, 
we can get something in place that will be enduring and 
everybody gets out of this hole so that they are not 
continually the subject of very unflattering reports.
    Mr. Bucshon. Understood.
    Mr. Whitney, do you have any comments on that?
    Mr. Whitney. Only that I am a career employee.
    Mr. Bucshon. Then you have a very good view of this, which 
you probably can't say here publicly, but I understand.
    Mr. Whitney. I started this assignment in May of last year. 
My predecessor was also a career employee. We haven't had a 
confirmed Assistant Secretary for several years. But we do have 
a very dedicated, strong workforce, as you pointed out, that is 
competent.
    Mr. Bucshon. Yes.
    Mr. Whitney. And I completely agree, it is not the 
workforce. We have systemic issues that were brought out by the 
AIB report that we need to fix.
    Mr. Bucshon. I think that is accurate.
    One of the other things that frustrates me is you can never 
put your finger on who actually is responsible at the end of 
the day, right? And we need to hold people more responsible, 
whether that is career or political appointees.
    Any time we try to ferret that out here in oversight 
hearings, at the end of the day, there is no one person that we 
can put our finger on, and that is very frustrating.
    Quickly, the cost, $70 million in contractor fines, half a 
billion dollars for the taxpayer potentially. I mean, is that a 
fair way to divvy that up? I mean, if we determine who is 
responsible, it seems to me if it is the agency responsible, 
then fine. If it is the contractor responsibility, then they 
should pay the whole thing. You can submit that answer for the 
record.
    [The information follows:]

        Fines are levied against the contractor in different ways, but 
        the most common approach is through a mutual agreement of the 
        parties. A bilateral agreement addressing the terms and 
        conditions associated with the fine/penalty is normally 
        incorporated into the contract via modification. The bilateral 
        agreement will outline the methodology for reaching the amount 
        of the fine. Payment of the fine is normally a reduction to the 
        available fee pool included in the existing contract. For 
        example, because of the impact of the Waste Isolation Pilot 
        Plant (WIPP) incident National Nuclear Security Administration 
        (NNSA) withheld $57.2M of fee in FY14, which included the 
        entire award, at-risk fee, and fixed fee available to the 
        contractor for work performed for the Department of Energy 
        (DOE)/NNSA. Absent existing funds on the contract, the 
        contractor will issue a check to the US Treasury to cover the 
        fine.

        DOE and NNSA Management and Operating contracts are cost 
        reimbursement, level of effort contracts. This means that 
        although the contractor may lose the fee for unsatisfactory 
        performance, generally, unless determined unallowable under the 
        standards identified in the FAR, the costs for cleanup and 
        repair are covered as they would be under any other cost 
        reimbursement contract.

    Mr. Bucshon. I yield back, Mr. Chairman.
    Mr. Murphy. The gentleman yields back now.
    Now we recognize Mrs. Brooks for 5 minutes.
    Mrs. Brooks. Thank you.
    Continuing a bit on that line of questioning, I am a former 
U.S. Attorney, and so I have led a Federal office where career 
prosecutors and career other staff, obviously, are there day in 
and day out through administrations, and different priorities 
come from different administrations and different leadership 
styles and so forth.
    But I think that because those of you who are the career, 
Mr. Whitney and Mr. Wyka, both career people, this is a bit of 
an opportunity for you to--and because I think other people of 
this panel--I am new to this committee, so I have not been here 
time and time again asking these questions like our chair and 
our ranking member have been. And I think this is a great 
opportunity for you to share with us what you would like to see 
happen in the best-case scenario, what are the improvements 
that you believe need to be made.
    For instance, looking at GAO's report and seeing what their 
recommendations have been and seeing that we just cannot seem 
to get this right, site after site and different sites, and I 
appreciate, Ms. Creedon, that you are spending days at each 
site now each quarter, but, yet, when you leave someday, how 
will that be institutionalized? And so while you might be 
really moving it in the right direction, how will we get to it 
being so systematic and so institutionalized that the oversight 
of this most critical infrastructure in our country is not left 
to random changes in how the oversight is conducted?
    And so I would really like to hear from the career folks 
what you would like to see improved and what policies you would 
like to see in place with respect to the contractor oversight 
or whether or not there should be more direct oversight. And so 
I would like to get your thoughts in my now 2 \1/2\ minutes 
left from both of you what your--and not that I don't 
appreciate what the others have to say, but this is an 
opportunity for career folks to tell us what needs to be fixed 
and how do we make sure these things don't happen again. What 
is it?
    Mr. Whitney, start with you, and then Mr. Wyka.
    Mr. Whitney. Yes, ma'am. Thank you.
    I think, most importantly, for the EM program, we cannot 
treat this as an opportunity only to fix WIPP and the incident 
there. We have to use this as an opportunity to fix our 
oversight across the EM complex.
    Mrs. Brooks. Agreed.
    Mr. Whitney. We very much are focusing in that area and 
making sure that not only are we sharing lessons learned, 
engaging directly with all our site managers, all our Senior 
Executive Service folks in the field to go over the lessons 
learned, and thankfully Mr. Wyka has agreed to work with us on 
that and to really engage and look at lessons learned, but also 
the oversight function.
    The contractor assurance system is one component of our 
overall oversight function. It is an important component. It is 
a contractor's component. But we have to make sure that as we 
move forward and we build a more robust oversight element at 
headquarters, that we are doing that in the field too and not 
just at WIPP, but at each of our field sites.
    Mrs. Brooks. Mr. Wyka.
    Thank you.
    Mr. Wyka. Thank you for the question.
    I think probably a key is to make sure that we have 
acceptance at all levels, not only at the senior level, but the 
mid-levels, as well as the worker level, that we have problems 
to fix, and to use this as an opportunity, as Mark mentioned, 
to almost look at ourselves in the rearview mirror and look at 
the analysis conclusions, the judgment of needs, the program 
processes, oversight breakdowns at all levels, look at our 
respective programs, no matter what they are, to sort of see if 
we are seeing those same type of precursor-type activities.
    Mrs. Brooks. And how does that occur now when you need to 
do those evaluations at your sites? Is it just with the top 
level? Or how do those process improvements, self-examination 
exercises take place now?
    Mr. Wyka. I think one way is to look at the way we look at 
our CAS systems. Rather than to look at them in terms of an 
affirmation or are they in place, the way we did it with the 
Accident Investigation Board--we didn't do a CAS assessment, we 
looked at the event--is to look at them in terms of the 
functional areas--Radcon, work controls, nuclear safety--and to 
look at the elements with respect to those functional areas, 
are they actually working effectively.
    Mrs. Brooks. But then how is that shared with every single 
person in the facility?
    Mr. Wyka. There is a lessons-learned program, and through 
what we are doing now and through debriefings and bringing our 
field managers together and having them required to read the 
documents and then we will discuss what are our corporate next-
step options as an enterprise.
    Mrs. Brooks. Thank you. My time is up.
    I yield back.
    Mr. Murphy. Thank you.
    Now I recognize Mr. Collins for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    I am new to this committee and shocked, I guess would be a 
good word, from what I am hearing. I come from the private 
sector. I am an ISO guy. I am an ISO 13485, my biotech. I run a 
select agent operation. We deal with all the bioterrorism 
agents. I deal with anthrax. We inactivate it. We make sure it 
is inactivated. My folks wear spacesuits. We have double 
airlocks. We don't make mistakes.
    Why don't we make mistakes? Because we have people in 
charge who know what they are doing. Clearly, that can't be 
said for your agency.
    Now, let me just state a fact: You can't defend the 
indefensible. But would any of you like to try, or should we 
move on?
    So the next question is, who was fired over this, and how 
many people?
    Ms. Creedon. The NNSA held responsible the contractors, the 
contractor operator.
    Mr. Collins. Were they fired?
    Ms. Creedon. So we did two things----
    Mr. Collins. Did you fire them?
    Ms. Creedon. We did not fire them, but what we did is we 
took all their fee and we did not----
    Mr. Collins. Did you sue them?
    Ms. Creedon. Well, we took all of their fee, and we took 
back a year of contract award that had been previously given.
    Mr. Collins. Oh, my goodness. And you think that was good 
enough?
    Ms. Creedon. It is all of their fee.
    Mr. Collins. That is not enough. The taxpayer is on the 
hook for $500 million. Did we sue them?
    Ms. Creedon. The laboratory director also relieved the 
seven senior managers who were responsible for the work that 
was done at Los Alamos.
    Mr. Collins. So he, obviously, wasn't involved or 
responsible because we didn't fire him? I am just saying, this 
is an example. I am somewhat surprised you are trying to defend 
this. You can't defend the indefensible.
    In the private sector, you would probably be fired. The 
contractor would be relieved. The contractor would be sued for 
the $500 million. We would put him into bankruptcy, if that is 
what it took, because I think what you are hearing me saying is 
through his incompetence and the incompetence of the people who 
didn't have the--this is procedures.
    Are you familiar with lockout-tagout? Well, when 
electricians, we would run the risk of them getting 
electrocuted if they are working on electrical equipment. It is 
fail-safe. You have keys. You have training. You can't be 
working on a live box with these procedures in place.
    This is fundamental. I mean, I am new to this committee. I 
am just beyond any comprehension that this occurred, that 
anyone involved is still working there. And it rests with the 
person in charge, the Secretary, yourself and others, the 
contractor. In the private sector they would have been 
terminated, they would have been sued, two or three levels of 
people would have been fired, a fix would have been in place, 
an emergency SWAT team would have been put in.
    Industry operates, my business operates in areas of 
critical--I mean, we are growing bioterrorism agents. We have 
people wearing spacesuits. We have to know nothing can go 
wrong. I mean, nothing can go wrong. And when people say, ``Why 
don't you sleep well at night some nights?,'' that is some of 
the reasons.
    But I hear this very nonchalant--we took away--I mean, do 
you realize how ludicrous it is that the organization in charge 
of this did what they did and cost the taxpayers $500 million 
and they are still there? And you think that taking away a year 
of their extension works? I just don't know what world you guys 
live in other than the bureaucratic world the public gets so 
upset by. I just would not only expect more, but I am surprised 
you are still working there.
    I mean, do you see where I am coming from? The taxpayers 
deserve more. And is there a reason we haven't sued the company 
to reclaim our $500 million? Our Government sure went after 
Toyota. We are going after GM for other things like that. Why 
aren't we going after this contractor?
    Ms. Creedon. So on the Los Alamos operating contractor, we 
did everything that we can do under our contract with them. We 
took all of their fee, and we took back a previously awarded--
--
    Mr. Collins. So we have a contract that doesn't state that 
they are responsible for something? When you breach a 
contract--and I would think this would be considered some 
breach of the contract--whatever the contract says is out the 
window. Taxpayers lost $500 million. You are saying we have a 
contract that doesn't allow us to recover that, or we can't sue 
on another basis, of gross incompetence? I would think gross 
incompetence and negligence would allow you to move forward on 
a suit. Maybe you lose the lawsuit, but I guess what I am 
hearing, we didn't even bring it. Did we?
    Ms. Creedon. No.
    Mr. Collins. No.
    I just find this whole thing unacceptable and would not 
only ask you to do better in the future, but somebody should be 
looking in mirrors and deciding, if they are not capable of 
doing the job, do us a favor and resign. If someone else is in 
charge and they are willing to put up with this level of 
incompetence within our own organization and the contractor, I 
think, again, they need to look in the mirror, and for the good 
of the Nation think about whether they should go to work 
tomorrow.
    Anyway, my time is over. I yield back.
    Mr. Murphy. The gentleman yields back.
    Ms. Creedon, just to clarify, who was in charge at the time 
this last problem occurred? Who had your position as a 
Principal Deputy Administrator of NNSA?
    Ms. Creedon. At the time that this event occurred, well, 
neither I nor the current Administrator were in place at that 
time. And I am trying to remember. I think at the time this was 
in place Tom D'Agostino was the Administrator and Neile Miller 
was the Principal Deputy Administrator. And they are, 
obviously, no longer in those positions.
    Mr. Murphy. And, Mr. Whitney, who had your position at that 
time?
    Ms. Creedon. Neile Miller.
    Mr. Murphy. Oh, Neile Miller.
    Ms. Creedon. Sorry.
    Mr. Murphy. OK.
    Mr. Whitney, I just want to make sure I understand who was 
in charge. Because Mr. Collins is bringing up a question. I 
just want to know what was the chain of command at that time.
    Ms. Creedon. I stand corrected. The previous Principal 
Deputy Administrator had already left at that point in time. 
And there was an Acting Administrator. Tom D'Agostino had also 
left at the time of this event. So at that point we had an 
Acting Administrator for NNSA, and there was no one in my 
position at the time of this event.
    Mr. Murphy. And, Mr. Whitney, about your position?
    Mr. Whitney. Yes, sir. We did not have a confirmed 
Assistant Secretary at the time. I believe the most senior 
person was a senior advisor for environmental management at the 
time.
    Mr. Murphy. It doesn't sound like anybody was in charge at 
the time.
    Mr. Green, you are recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    I would like to talk about the effectiveness of DOE's 
oversight across various sites of the nuclear security complex 
and the reliability of related contractor assurance programs. 
Is it safe to say that the WIPP accident investigations prove 
that the Federal oversight and the contractor assurance systems 
were ineffective at WIPP and at LANL? The Y-12 security breach 
also demonstrated the ineffectiveness of oversight and 
contractor assurance.
    For both our DOE witnesses, what do you know about the 
contractor assurance systems at the other nuclear weapons 
research facilities and cleanup sites? Are there any that you 
can point to that we can rightly say are effective for DOE 
oversight purposes?
    Ms. Creedon. At the NNSA sites we have contractor assurance 
systems in place. We are looking at those again. We have been 
looking at those. They are a tool, as we look at how we 
evaluate our contractors. Right now we believe that some of 
them are actually pretty good and others clearly need work, 
like the one at Los Alamos.
    Mr. Whitney. Yes, sir. For the environmental management 
program, we did conduct a review of the contractor assurance 
systems at our largest sites. This was prior to the WIPP 
incident. We looked at the elements, operational elements of 
the CAS system to see if they were there and to see if they 
were being implemented appropriately and if the field office is 
then providing that independent oversight. For those sites, we 
did find that they had effective systems in place, but now we 
are moving forward to reevaluate all of our sites' CAS.
    Mr. Green. All of us would hope this would be an exception 
of the rule. So you are evaluating that now with your other 
sites to see if there has been any followup. I understand the 
GAO report, that NAP-21 established a process for NNSA 
headquarters to review the effectiveness of contractors' 
implementation of assurance systems and field offices' 
oversight approaches called affirmation. However, after the Y-
12 security breach occurred at a facility whose contractor 
assurance system had been affirmed as effective, NNSA 
discontinued the process of affirmation reviews. Is that true?
    Ms. Creedon. That is correct.
    Mr. Green. If you don't like the answer, you don't review 
it?
    Ms. Creedon. No. What happened was the contractor assurance 
system at Y-12 had been affirmed, and then it was shortly after 
that contractor assurance system had been affirmed we had the 
incident at Y-12. So it was clear that there was a fault in 
that affirmation process, and we discontinued that process.
    Mr. Green. OK. GAO has also recommended that NNSA establish 
a process of reviewing the effectiveness of field offices' 
oversight approaches, including the use of contractor assurance 
information. NNSA's response letter to the GAO report states 
that the new corporate policy and guidance will outline an 
approach for validating the effectiveness of the oversight 
approaches by March of 2016.
    Administrator, does this mean that just the process will be 
established by March of 2016, not that the actual reviews will 
be conducted?
    Ms. Creedon. So that is when the implementation guidance 
will be issued, and the process will actually be established 
sometime earlier. So we will have it implemented and up and 
running by then.
    Mr. Green. OK. So how long after that will it take to 
conduct and complete the actual effectiveness reviews?
    Ms. Creedon. I don't know, because we haven't put those 
implementation processes in place yet. But even in this interim 
period, we still continue to look at our contractor assurance 
systems. We work with our field office managers in other ways 
to ensure that we have got adequate oversight and that these 
are providing us with reliable information.
    Mr. Green. So you are actually looking at a range of 
facilities to make sure these effectiveness reviews are 
conducted hopefully as soon as possible.
    Ms. Creedon. Yes.
    Mr. Green. And will that be before March 16?
    Ms. Creedon. So a formal process has not yet been 
reestablished. But even in advance of the reestablishment of a 
formal process, we are looking at whether or not these 
contractor assurance systems are providing us accurate and 
timely information.
    Mr. Green. And this is systematic, I guess, of all the 
sites?
    Ms. Creedon. On the NNSA sites, yes. And I will let Mr. 
Whitney speak to his sites.
    Mr. Green. OK. On EM's effectiveness.
    Mr. Whitney. Yes, sir. We believe that it is a systemic 
issue, and that is why we are revamping our oversight program 
at headquarters with a strong focus on all the oversight 
elements, including the contractor assurance system at all our 
sites and our field offices' oversight of those contractor 
assurance systems.
    Mr. Green. So in your testimony, it is a systemic and not 
just an exception. But you are working to fix it, I hope.
    Mr. Whitney. Yes, sir.
    Mr. Green. OK.
    Thank you, Mr. Chairman. I know I am out of time.
    Mr. Murphy. Thank you.
    Now we welcome and recognize Mr. Lujan for 5 minutes.
    Mr. Lujan. Mr. Chairman, thank you so very much. And I 
really appreciate, Mr. Chairman, you and the ranking member 
bringing us together for this important hearing pertaining to 
the Waste Isolation Pilot Plant and Los Alamos National 
Laboratory EM, as well as the NNSA.
    Mr. Whitney, as we work on these issues, I think it is 
important to remember that in executing the mission of these 
projects, as well as to Ms. Creedon, that we also work with 
these local communities. And, Mr. Whitney, are you committed to 
engaging and involving the surrounding local community in the 
prioritization and procurement of environmental cleanup efforts 
at Los Alamos National Laboratory?
    Mr. Whitney. Yes, sir. I have had an opportunity actually 
to meet with the community on several occasions now. And now 
that we have formally stood up the EM field office, our senior 
manager there has also done that, and we are committed to 
continuing that relationship.
    Mr. Lujan. And as you increase Federal oversight positions 
at LANL, what are you doing to ensure that the funding for 
cleanup efforts does not adversely impact it?
    Mr. Whitney. As we move forward with EM, the transition 
from NNSA to EM, we are looking at the entire program. Of 
course you know the consent order with the State for the 
cleanup program was to be completed by the end of 2015, and 
that is not going to happen. So we are looking at the program, 
rebaselining the program, and also we will be working very 
closely with the State over the next several months, and we 
will assure that we have resources requested to do the cleanup 
work at the site based on that.
    Mr. Lujan. And, Mr. Whitney, as conversations are had with 
various States around the country based on what we saw with the 
incident here, are we going to also take into consideration 
that the time lines that we are working with are going to 
ensure that the safest protocol associated with completing 
these projects is included?
    Mr. Whitney. Yes, sir. Safety is our overriding priority, 
and that is, as the Secretary has said, that is an integral 
part of accomplishing our mission. That comes first, and then 
the mission will follow.
    Mr. Lujan. I appreciate that very much.
    And, Ms. Creedon, what is your agency's intent for CAS? Do 
you believe that CAS is still the right tool for the objective 
that we are talking about today?
    Ms. Creedon. Yes, sir. Contractor assurance systems are an 
important element. They should provide the contractor, our M&O 
partners, with an opportunity to be able to have their own 
internal strong assessment program, which is an absolutely 
essential element of effective management. And it, hopefully, 
if it is effective, will provide the same information to us.
    Mr. Lujan. So in order to work with the contractors and 
with the leadership at the various laboratories in NNSA's case, 
does NNSA have a responsibility to make sure that proper 
policies and guidance are given for the implementation of the 
CAS systems?
    Ms. Creedon. Yes, sir.
    Mr. Lujan. And what is your response to GAO where one of 
the GAO reports includes that NNSA did not fully establish 
policies or guidance for using CAS information for oversight 
leading to inconsistency in oversight and GAO also stated that 
NNSA did not adequately monitor the effectiveness of the CAS 
process?
    Ms. Creedon. So we agree with GAO. As we have discussed, 
the NAP-21 affirmation process was halted after the events at 
Y-12. And now that the Administrator, the new Administrator, 
Frank Klotz and I are both in place, we are taking a look at 
this again and trying to get all of us back on the right track.
    Mr. Lujan. Very good. I would just note as well that in a 
separate GAO report, April 15, 2015, ``Observations on 
Management Challenges and Steps Taken to Address Them,'' the 
report also, quote: ``As noted in GAO's 2015 high risk report, 
NNSA has a long history of identifying corrective actions and 
declaring them successfully resolved, only to follow with the 
identification of additional actions. As GAO has reported, this 
suggests that NNSA does not have a full understanding of the 
root causes of its contract and project management 
challenges.''
    So I think it is critically important, as we look over the 
series of these, that we have to get this right. Above all, we 
also not only have national security responsibilities to all 
the workers, to all the communities that are in this space, to 
ensure their safety, as Mr. Whitney has as well, and we have to 
get this right.
    And with that being said, Mr. Chairman, I know that several 
of our members today have spoken about or asked questions about 
governance structure as well, and I know my office is reaching 
out to the majority staff and minority staff so we can have 
those conversations based on the Mies-Augustine report, the 
Academy of Sciences, various amendments that have come through 
the House and Senate in this structure. And I think that there 
is an important responsibility that we have in the committee, 
but also for those that are interested, I would certainly 
appreciate getting a chance to work with them.
    And then also, as we noted, Mr. Chairman, as my time 
elapses, or has elapsed, with making sure that we are able to 
work with our Senate counterparts that through the process of 
making sure that we have the right people in the right jobs at 
the right time. As we saw, there was a lapse here with a lot of 
acting administrators and acting directors, acting secretaries 
in this space as well.
    I don't think that is an excuse, though, Mr. Chairman, but 
every layer of oversight that we can work on to make more 
effective, I would certainly appreciate being able to work with 
anyone, and especially yourself and the ranking member on that.
    Thank you again for allowing me the time to speak today, 
sir.
    Mr. Murphy. Thank you. And I want to offer my gratitude not 
only for your offer, but your continued help for this 
subcommittee. We recognize your concern about your district 
there, as is the other members from the other districts which 
this covers.
    And along those lines, Ms. DeGette, I would like to get on 
the record a request that we discussed as a sidebar, that this 
subcommittee continues to follow up. And we would ask the 
support of the Department of Energy not just in the hearing 
mode, but really we want to continue oversight and briefings 
with you and get some updates. We know your invoking a lot of 
changes, but we recognize these problems have gone on too long, 
too far.
    We appreciate your candor. I will tell you, nothing goes 
better than having a committee hearing where people come in 
here and say, ``We have got a problem.'' That is helpful. And 
we recognize your motivation in trying to fix this. We want to 
continue to work with you, so we would like to have further 
briefings in the future.
    Ms. DeGette. If I may, I also want to add our thanks to 
GAO, which has really been bulldogging this for many, many 
years now.
    Mr. Murphy. Thank you.
    We do appreciate it. Let everybody know at GAO that we find 
your reports very valuable and pretty straightforward. So thank 
you.
    Ms. Bawden. Thank you.
    Mr. Murphy. Along those lines, too, I also ask unanimous 
consent that the contents of the document binder be introduced 
into the record and to authorize staff to make any appropriate 
redactions. And without objection, the documents will be 
entered into the record with any redaction the staff determines 
are appropriate. \1\
---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and also 
is available at  http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=103595.
---------------------------------------------------------------------------
    Mr. Murphy. In conclusion, I want to thank all the 
witnesses. Thank you so much for your participation in today's 
hearing. It has been very helpful.
    And I remind members, they have 10 business days to submit 
questions for the record. And I ask all that the witnesses all 
agree to respond promptly to the questions.
    And with that, this hearing is adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  

                                 [all]
</pre></body></html>
